<html>
<title> - OVERSIGHT HEARING ON FOREST SERVICE LAW ENFORCEMENT</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
          OVERSIGHT HEARING ON FOREST SERVICE LAW ENFORCEMENT

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON FOREST AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                     JUNE 23, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-94

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 49-653 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

                Subcommittee on Forest and Forest Health

                    HELEN CHENOWETH, Idaho, Chairman
JAMES V. HANSEN, Utah                MAURICE D. HINCHEY, New York
JOHN T. DOOLITTLE, California        BRUCE F. VENTO, Minnesota
GEORGE P. RADANOVICH, California     DALE E. KILDEE, Michigan
JOHN PETERSON, Pennsylvania          ENI F.H. FALEOMAVAEGA, Am. Samoa
RICK HILL, Montana                   ---------- ----------
BOB SCHAFFER, Colorado               ---------- ----------
                      Bill Simmons, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                  Jeff Petrich, Minority Chief Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held June 23, 1998.......................................     1

Statements of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................     1

Statements of witnesses:
    Hill, Barry, Associate Director, Energy, Resources, and 
      Science Issues, General Accounting Office..................     3
        Prepared statement of....................................    29
    Joslin, Bob, Deputy Chief, United States Forest Service, 
      Department of Agriculture, accompanied by William Wasley, 
      Director, Law Enforcement and Investigations, U.S. Forest 
      Service....................................................     5
        Prepared statement of....................................    36



          OVERSIGHT HEARING ON FOREST SERVICE LAW ENFORCEMENT

                              ----------                              


                         TUESDAY, JUNE 23, 1998

        House of Representatives, Subcommittee on Forests 
            and Forest Health, Committee on Resources, 
            Washington, DC.
    The Subcommittee met, pursuant to notice at 10:06 a.m., in 
room 1334, Longworth House Office Building, Hon. Helen 
Chenoweth (chairman of the Subcommittee) presiding.
    Mrs. Chenoweth. The Subcommittee on Forests and Forest 
Health will come to order.
    The Subcommittee is meeting today to hear testimony on 
Forest Service law enforcement, and under Rule 4(g) of the 
Committee rules any oral opening statements at hearings are 
limited to the chairman and the Ranking Minority member. This 
will allow us to hear from our witnesses sooner and help 
members keep to their schedules. Therefore, if other members 
have statements, they can be included in the hearing record 
under unanimous consent.

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mrs. Chenoweth. Now this week, we resume our series of 
oversight hearings on the various programs within the Forest 
Services.
    On Thursday, we will review the agency's employee training 
programs.
    Today, we're going to take a close look at the Law 
Enforcement Investigations Division of this agency.
    In the last few years, Congress has expressed significant 
concern over the Forest Service law enforcement activities. And 
while everyone agrees that there must be a strong law 
enforcement presence in our national forests, there is 
considerable debate over who is best able to perform that 
function.
    Many, including myself, believe that local law enforcement 
organizations are generally most qualified and capable and have 
the clearest legal authority, so the appropriateness of the 
Forest Service even having their own law enforcement 
organization is a question we will want to discuss. But we will 
also want to discuss the strengths and weaknesses of the law 
enforcement organization as it's currently structured and 
attempt to determine what can be done to make it more 
responsive to Congress and to the public.
    In 1993, a new organizational structure for law enforcement 
and investigations was established. Up until that time, law 
enforcement personnel reported directly to the Forest Service 
line officers at the Forest level.
    Now, law enforcement and investigations is a completely 
independent organization, reporting only to the chief.
    In 1996, the House Appropriations Committee ordered that an 
independent study be done to determine the viability and 
effectiveness of the new structure. That report was completed 
and delivered to Congress in January 1997. The study, called 
the ``Star Mountain Report,'' expressed major concerns with the 
accountability of this organization and made a number of 
recommendations for addressing them. The agency has had over a 
year and one half to respond to these concerns presented in 
that particular study.
    Unfortunately, we have found that little progress has been 
made by the agency to respond to the problems brought forth in 
the Star Mountain Report.
    In preparing for this hearing, we requested copies or 
examples of all reports generated by law enforcement and 
investigations. What we found, to our astonishment, was that no 
systematic reporting is done to document what the organization 
is doing, and how it is spending the $68 million appropriated 
for its management.
    When I said that law enforcement reports only to the chief, 
I used the term report loosely, because, as far as we can tell, 
the only reporting done to the chief is verbal and infrequent.
    The Star Mountain Report flatly states: ``There is no 
measurement of system performance.'' The report goes on to say, 
``both line management and law enforcement are missing the 
basic quantitative and qualitative performance metrics and 
measurement systems to monitor and evaluate performance or 
customer service. For example, customer satisfaction is a valid 
measure for any organization, but no vehicle exists to provide 
this kind of data.
    The new organizational structure has been in place for 5 
years. The Star Mountain Report was completed over a year and 
one half ago, and, yet, no basic accountability standards and 
processes have been implemented. This is unacceptable and 
remarkable, considering the vision statement for law 
enforcement and investigations, as stated in the Forest Service 
Strategic Plan, saying that ``the law enforcement organization 
is a diverse work force committed to integrity, responsibility, 
and accountability.''
    Forest Service law enforcement has, for all intents and 
purposes, become a stealth organization lying under 
congressional radar. This lack of reporting and accountability 
has made it very difficult, if not impossible, for us to 
adequately measure the effectiveness of the organization.
    During our investigations, we raised these concerns over 
lack of a reporting and accountability repeatedly. Fortunately, 
last week, we heard that the agency has responded to some of 
our concerns and will be making some changes in its reporting 
requirements. This will be a prime focus of today's hearing, to 
determine why the agency, as it developed a data collection and 
reporting system, and to determine what the agency plans to do 
to rectify this problem.
    The Star Mountain Report also made a number of suggestions 
for improving the efficiency of the organization. Most 
important was the strong recommendation to more rigorously use 
cooperative agreements with local, State, and country law 
enforcement personnel. Cooperative agreements count for 8 
percent of law enforcement's budget. We hear today how the 
agency plans to greatly expand the use of these cost-savings 
agreements. We hope we hear that today.
    The report also recommended that the agency analyze the 
potential for using block grants to more efficiently fund 
activities through local governments. In some many cases, local 
governments can provide better expertise at lower cost. The 
agency must be willing to utilize block grants where these 
conditions are met or Congress will make that decision for you.
    To deal with the serious problems of our national forests, 
such as drug trafficking, arson, timber and property theft, 
vandalism, and wild fire crimes, we all understand the need to 
have the most effective law enforcement program possible. This 
is why we are holding this oversight hearing, to better 
understand current programs and structures and to make sure 
that the necessary improvements and changes are or will be 
taking place to ensure that our national forests are as crime 
free and safe as possible.
    I look forward to the testimony of the panel. And we'll 
recognize the Ranking Minority member for any opening statement 
he may have. Should he not appear today, that statement will be 
made a part of the record.
    And now, I'll introduce our witnesses. Barry Hill--if 
you'll come to the panel table--Associate Director of Energy, 
Resources, and Science Issues from the General Accounting 
Office; Robert Joslin, Deputy Chief, United States Forest 
Service, Department of Agriculture. Accompanying Mr. Joslin is 
William Wasley, Director, Law Enforcement and Investigations, 
with the U.S. Forest Service.
    As explained in our first hearing, it is the intention of 
the chairman to place all outside witnesses under oath. This is 
a formality of the Committee that is meant assure open and 
honest discussion, and should not affect the testimony given by 
our witnesses. I believe all of the witnesses were informed of 
this before appearing here today. And they have each been 
provided a copy of the Committee rules.
    Now, if the witnesses will please stand and raise your 
right hand, I will administer the oath.
    [Witnesses sworn.]
    Let me remind the witnesses that under our Committee rules, 
they must limit their oral testimony to 5 minutes, but that 
your entire statement will appear in the record. We will also 
allow the entire panel to testify before I will begin the 
questioning of the witnesses. The chairman now recognizes Mr. 
Barry Hill, with the GAO, to begin his testimony.

STATEMENT OF BARRY HILL, ASSOCIATE DIRECTOR, ENERGY, RESOURCES, 
         AND SCIENCE ISSUES, GENERAL ACCOUNTING OFFICE

    Mr. Hill. Thank you, Madam Chairman, and members of the 
Subcommittee.
    Before I begin, allow me to introduce my colleague. With me 
today is Ned Woodward who is responsible for compiling much of 
the information that we will be presenting today.
    I'm pleased to, once again, appear before this Subcommittee 
and to have the opportunity today to discuss law enforcement 
activities in the Forest Service. My remarks today are based 
primarily on a report that we issued last July. That report was 
done at the request of this Subcommittee, among others, and 
asked us to provide information on the number of Forest Service 
law enforcement activities. Most of the information provided 
focused on two areas.
    First, the number of employees involved in law enforcement 
activities. And second, the costs associated with these 
activities.
    In addition, you asked us to provide information on other 
aspects of Forest Service law enforcement, including 
interaction with other Federal, State, and local enforcement 
agencies, the number and types of crimes committed on national 
forest lands, and the number of complaints against the agency's 
law enforcement staff.
    To meet the needs of the Subcommittee, our 1997 report was 
prepared under very tight timeframes. To obtain the information 
we needed in the timeframe requested, we obtained information 
that was readily available from Forest Service headquarters. 
Due to time constraints, we were unable to assess or verify the 
accuracy of the data we obtained. Our report was based on 
Fiscal Year 1996 data, which were the latest available at the 
time. However, in preparation for this hearing we worked with 
the Forest Service to update much of the information we are 
providing to Fiscal Year 1997.
    Before I present the data, let me provide some background 
or context about law enforcement activities within the Forest 
Service. The Office of Law Enforcement and Investigations 
within the Forest Service is responsible for investigating 
offenses against the United States that occur within or have a 
nexus to the national forest system lands, which include 155 
national forests and 20 national grasslands, covering about 
192,000,000 acres. The types of investigations and enforcement 
actions in which the Forest Service is involved include 
wildlife crimes, fire and arson, theft of timber and other 
property, theft and or destruction of archaeological resources 
or natural resources, drug cultivation and manufacturing, 
illegal occupancy of national forest system lands, and threats 
and assaults against Forest Service employees.
    In summary, in Fiscal Year 1997, the Forest Service's law 
enforcement program included 708 agency staff, including 479 
law enforcement officers; 149 special agents; 41 reserve law 
enforcement officers; and 39 administrative staff. The cost of 
law enforcement in the agency included about $43.8 million in 
salaries, and $18.4 million in support costs for such items as 
rent for office space, fleet equipment, travel, training, and 
uniforms.
    In addition, the Forest Service entered into 717 
cooperative agreements with State and local law enforcement 
agencies at a cost of $6.3 million. Of these agreements, 546 
were cooperative patrol agreements, which involve conducting 
routine patrols through the Forest Service's developed 
recreation areas; and 171 were agreements focusing on drug 
enforcement issues.
    Our 1997 report also provided information on the number of 
offenses that occurred on national forest system lands. For 
definitional purposes, an offense means that a crime has 
occurred; whereas, arrest generally means that someone has been 
identified as committing an offense. In 1996, there were 3,481 
offenses involving serious misdemeanors and felonies, such as 
assaults, grand theft, and murder, and 118,596 petty offenses, 
such as careless driving, discharging a firearm, use of 
firecrackers, alcohol violations, and permit violations.
    Concerning the number of complaints against Forest Service 
law enforcement personnel, Forest Service information shows 
there were four complaints in 1992; 13 complaints in 1993; 20, 
in 1994; 25, in 1995; 11, in 1996; and 14 complaints in 1997. 
In 1997, as an example, the types of complaint made against 
agency law enforcement staff included falsifying time and 
attendance reports, verbal threats, and inappropriate discharge 
of a weapon.
    The Forest Service has a system to track the investigation 
and resolution of complaints against law enforcement staff. 
Depending on the nature of the complaint, it will either be 
investigated by agency regional human resources staff, the 
Department of Agriculture's Office of the Inspector General, 
Forest Service law enforcement staff, or the Department of 
Justice.
    Madam Chairman, this concludes my statement at this time.
    [The prepared statement of Mr. Hill may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Mr. Hill.
    The Chair recognizes Mr. Bob Joslin.

  STATEMENT OF BOB JOSLIN, DEPUTY CHIEF, UNITED STATES FOREST 
  SERVICE, DEPARTMENT OF AGRICULTURE, ACCOMPANIED BY WILLIAM 
  WASLEY, DIRECTOR, LAW ENFORCEMENT AND INVESTIGATIONS, U.S. 
                         FOREST SERVICE

    Mr. Joslin. Thank you, Madam Chairman.
    Today, I have with me Bill Wasley, who is our director of 
Law Enforcement and Investigations for the Forest Service.
    Thank you for the opportunity to be here.
    I would just like to highlight briefly some of the parts of 
my testimony and that it be it incorporated, the entire 
testimony, be incorporated in the record.
    The national forests and grasslands are also host to over 
800,000,000 people who visit and use these lands each year. As 
you know, we administer tens of thousands of permits, 
contracts, and other authorizations that produce goods and 
services from the national forest system lands.
    Law enforcement is an integral part of part of the Forest 
Service mission of ``Caring for the Land and Serving People.'' 
The goal of the law enforcement program is to protect the 
public, employees, and natural resource and other property 
under the jurisdiction of the Forest Service.
    The Director of the Forest Service Law Enforcement and 
Investigations organization does report directly to the chief. 
The director has a deputy director and four assistant directors 
in the Washington office. He also has nine regional special 
agents in charge, who supervises the law enforcement of 
programs in each region of the Forest Service. Regional 
organizations vary, but generally consist of a small regional 
staff, a zone supervisory level, and a supervisory level at the 
forest. The uniformed law enforcement officers work under the 
zone and forest-level supervisors. At this time, the Forest 
Service has approximately 450 uniformed law enforcement 
officers and approximately 130 criminal investigators.
    The law enforcement officers perform a full range of 
patrol-type enforcement duties, such as enforcing compliance 
with regulations for wood cutting, fire use, or dealing with 
unauthorized occupancy and use of the national forest system 
lands. Law enforcement officers regularly encounter and handle 
public safety incidents, such as a traffic accidents, search 
and rescues, disputes, shooting incidents, drug and alcohol 
possession and use problems, and assault. They conduct 
preliminary investigations, and assist Forest Service criminal 
investigators in conducting some full investigation.
    Criminal investigators conduct investigations regarding 
timber theft, theft of archaeological artifacts, threats 
against Forest Service employees, wildland arson and human 
caused fires, marijuana cultivation, and damage to public 
property, among others.
    Investigations have positive results. Every year, our 
officers investigate thousands of wildfires to determine their 
cause. In addition to any criminal prosecutions that may result 
from these investigations, the Forest Service often seeks civil 
remedies to cover--recover the costs of suppression and the 
value of resources damaged. Arson cases investigated by Law 
Enforcement and Investigation personnel in recent years have 
resulted in civil recoveries of over $7 million.
    The Forest Service has played a significant role in drug 
enforcement for over 20 years. In 1997, 80 drug labs or drug 
lab dumps were found on the national forest system lands. 
Working cooperatively with our State and local law enforcement 
partners, the Forest Service eradicated over 300,000 marijuana 
plants valued at nearly $950,000,000 from approximately 4,400 
sites. Officers made over 2,400 arrests and seized nearly $14 
million of processed marijuana, $20 million of cocaine, and 
over $1.1 million in assets.
    The Forest Service Law Enforcement and Investigation 
program is funded by a separate line item in the budget. The 
appropriated funding for LE&I in Fiscal Year 1997 was just over 
$59 million. The appropriated funding for the program in Fiscal 
Year 1998 is nearly $64 million. And the president's budget 
request for Fiscal Year 1999 is just over $67 million.
    Each year, increases in public and commercial use of 
national forest system lands causes increases in crimes against 
people and resources. Other State, Federal, and local law 
enforcement agencies are similarly faced with increasing crime 
trends that tax their abilities to accomplish their work with 
limited resources. Although Forest Service officers have 
various authorities to enforce State and local--cooperation 
with State and local agencies in the enforcement of these laws 
on public lands is encouraged.
    Total incidents reported by the Forest Service officers in 
1997 were triple those reported in 1992. The trends of 
increased uses of national forest and increased urbanization 
stretch our patrol and investigation staff. Large events, such 
as the upcoming 2002 Olympics, increasing demonstrations, drug 
smuggling, a large number of recent natural disasters, and 
large group events on the national forest system, further 
impact our local coverage by requiring us to move our 
enforcement personnel around the country.
    We have implemented a large number of program and 
organizational changes since 1994 that have improved the 
oversight, professionalism, and customer service focus of our 
organization. Our emphasis in organizational change has been to 
focus our field criminal investigators on investigative duties 
and to increase the staffing of uniformed law officers, 
especially in areas where there has been little or no coverage.
    In summary, our law enforcement program is a valuable part 
of the Forest Service mission of ``Caring for the Land and 
Serving People.'' Crime problems have increased and have 
migrated to the national forest system. Our officers meet 
accepted standards for Federal law enforcement training, and a 
strong cooperative law enforcement program allows us to 
efficiently share scarce resources.
    This concludes my remarks. I would be happy to answer any 
questions you might have.
    [The prepared statement of Mr. Joslin may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Joslin.
    And the Chair now recognizes Mr. William Wasley for his 
testimony. Mr. Wasley?
    Mr. Wasley. I have no testimony, Madam Chairman.
    Mrs. Chenoweth. All right. Thank you very much. That does 
conclude the testimony. I'd like to open up my questioning with 
a question to Mr. Hill or to Mr. Woodward. Mr. Hill or Mr. 
Woodward, did Mr. Woodward complete the work for you at the 
GAO?
    Mr. Hill. Yes, he did.
    Mrs. Chenoweth. All right. I'd like to know what role you 
found in terms of cooperation there was with the Forest Service 
with regards to the Drug Enforcement Agency and the FBI? What 
kind of cooperation did we find there?
    Mr. Hill. Cooperation in terms of them providing 
information to us or cooperation between the Forest Service and 
the FBI and DEA?
    Mrs. Chenoweth. Let me use an example. In Idaho, we had a 
huge drug bust--a huge drug bust. And in our western States, we 
know that there's a lot of marijuana growing on the public 
lands. What kind of cooperative relationship exists between 
Drug Enforcement and the FBI with the Forest Service?
    Mr. Hill. It's our understanding that generally the DEA and 
the FBI do defer most of the investigative work to the Forest 
Service; that the majority of violations and crimes that occur 
in the national forests are being investigated by the Forest 
Service. Now, obviously, when you get into the marijuana and 
drug issue, then there would be some overlap. I don't know to 
what extent there is cooperation or coordination between the 
two agencies.
    Mr. Woodward. It is our understanding that basically the 
FBI and DEA defer to the Forest Service responsibilities for 
crimes committed within the border of the national forest 
service. When the Forest Service needs some assistance, they 
will request it, and rarely, if ever, will the FBI or DEA deny 
such a request. But it's not something that occurs very 
frequently.
    Mrs. Chenoweth. That is not good to hear. Perhaps we ought 
to do away with the DEA and just have the Forest Service handle 
drug interdiction in the western States. This is not good to 
hear. Congress set forth laws for the DEA to implement in drug 
enforcement, and you're telling me that there's very little 
cooperation with DEA and the FBI in drug enforcement?
    Mr. Woodward. It's our understanding that the role of the 
DEA is largely based on looking at our nation's borders and 
looking at drugs coming in from outside of our borders. In 
talking with the Forest Service about their cooperation with 
DEA, they felt that they had--when they needed--the assistance 
of the DEA. But, in many cases, working with the field, the 
staff on the ground, and also with local and State law 
enforcement, with issues such as eradicating marijuana and that 
sort, the Forest Service didn't need the assistance of the DEA 
for something that was inside the borders of the national 
forests.
    Mrs. Chenoweth. Mr. Wasley, what is your opinion of that?
    Mr . Wasley. My opinion is, Madam Chairman, is that we have 
great cooperation with both the FBI and DEA. Very often, our--
the nature of the work that we do, especially on marijuana 
eradication within the borders of the national forest, lends 
itself more to our expertise than it does the expertise of DEA. 
And it's in no fashion demeaning the capabilities of DEA. That 
means simply that DEA has deferred to us something that falls 
completely within our realm of expertise.
    Mrs. Chenoweth. Outside the public lands, who handles 
investigation of drugs on private land, State, or other Federal 
land--outside of the Forest Service land? Whose? Which agency 
has the primary role for investigation?
    Mr. Wasley. Well, it's a multiple agency role actually. 
There would be local, Federal and State for drug enforcement.
    Mrs. Chenoweth. I'll get back to you on that.
    Mr. Hill, who investigates the complaints against the 
Forest Service law enforcement staff?
    Mr. Hill. That, to a large extent, depends on the nature of 
the complaint that's being investigated. If the complaint deals 
with generally with misconduct, they'll generally be 
investigated by the agency itself, its human resources staff. 
If it's a criminal complaint it can be either handled by the 
Agriculture Office of Inspector General or by the Forest 
Service law enforcement staff itself. And it's our 
understanding that the OIG would be investigating the more 
serious criminal complaints. If the complaint relates to a 
deprivation of civil rights, then those will be investigated 
and referred to by the Justice Department.
    Mrs. Chenoweth. Is there a mechanism in order for 
complaints to get to the chief or to get to the region--
regional forester--or to the supervisor?
    Mr. Woodward. I think there are variety of mechanisms. The 
Department of Agriculture office of Inspector General has a 
hotline. Many complaints come by that venue. Other complaints 
will come to the forest supervisor who will forward them up the 
chain of command, at which point they may be----
    Mrs. Chenoweth. Mr. Woodward, I question the number, 
because I have heard hundreds of complaints myself. Now there's 
a reason you're not finding them in your report. I want to know 
that reason. This is ridiculous for me to hear a number of 14 
from you, when I have personally heard hundreds in just one 
district. Now I'm asking you, is there a mechanism for the 
regional forester or for the supervisor or the ranger to hear 
complaints? That's my question. Mr. Hill?
    Mr. Hill. We really can't give you a firm answer on that.
    Mrs. Chenoweth. Why can't you?
    Mr. Hill. Because we really have not looked at that issue. 
The majority of what we're providing you today is based on what 
we were told by the same gentleman at the table here, quite 
frankly. We have not investigated the process that's in place 
or just how things operate in terms of when a complaint comes 
in, how it's surfaced up and handled by the Forest Service.
    Mrs. Chenoweth. Well, I do want to say that I don't want 
you to defend the numbers if they're inadequate. I want you to 
find out why the numbers are inadequate. And I'm telling you, 
those are inadequate numbers.
    Mr. Hill. Well, Madam Chairman, we're not defending any 
numbers. I think we tried to make it clear that what we're 
presenting is the information that we obtained from the Forest 
Service headquarters officials, and we have not had the 
opportunity to verify that information; although if you'd like 
us to do some of that work, we would be more than happy to do 
that in the future.
    Mrs. Chenoweth. I would like to talk to you about that.
    Mr. Hill. Certainly.
    Mrs. Chenoweth. What types of complaints generally have 
been filed against the Forest Service enforcement staff?
    Mr. Hill. There's a variety of complaints, and here again, 
this is based on the records that they have provided us. 
Complaints include falsifying time and attendance reports on 
the part of the Forest Service staff, racial harassment, verbal 
threats, inappropriate discharge of weapons--things of that 
order.
    Mrs. Chenoweth. Can you tell me how these--how the Forest 
Service agents are trained? What must they be qualified in? Are 
they trained in law enforcement specifically?
    Mr. Hill. I have to apologize, Madam Chairman. We don't 
have any information on that at this time.
    Mrs. Chenoweth. All right. Let me review your testimony 
here. There were--unfortunately, we only had 5 minutes, and 
your written testimony is very, very interesting.
    All right, I will call on the Forest Service, either Mr. 
Joslin or Mr. Wasley. Mr. Wasley, let me ask you first, what is 
your background? How long have you been with the Forest 
Service?
    Mr. Wasley. I've been with the Forest Service since October 
1996. Prior to that, I was a local policeman in California. I 
was 21 years with the United States Secret Service. I worked 
three and a half years with the Office of Foreign Assets 
Control in main Treasury. I was a customs agent, and I worked 
for the Bureau of Prisons.
    Mrs. Chenoweth. And you were brought to the Forest Service 
for what specific purpose?
    Mr. Wasley. To run the Law Enforcement and Investigations 
program.
    Mrs. Chenoweth. Is there, Mr. Joslin or Mr. Wasley, is 
there specific authority granted by the Congress for this 
position?
    Mr. Wasley. Yes.
    Mrs. Chenoweth. Could you cite where it is?
    Mr. Wasley. Well, my understanding is it's in 16 United 
States Code 559, to start with.
    Mrs. Chenoweth. Sixteen five five nine. For this particular 
position, right?
    Mr. Wasley. Well, not specifically for my position. But I 
believe implied in that would be the regulation of criminal 
behavior on the national forests.
    Mrs. Chenoweth. Sixteen five five nine is the section of 
the code that allows for the agency to hire up to a 1,000 
people to involve themselves in law enforcement, right?
    Mr. Wasley. I'm not sure if that's 559.
    Mrs. Chenoweth. With regards to the reporting mechanism, 
how are crimes or misdemeanors or any kind of offenses reported 
in this system and who to? Do you receive the reports? Or does 
the chief?
    Mr. Wasley. I receive the reports. And then, as 
appropriate, I pass them on to the chief, normally in a 
condensed version. I might say for the record that we are in 
the process now of totally reevaluating our data collection 
systems within law enforcement.
    When I became Director in October 1996, I saw the immediate 
need for a total reworking of the way we collect our data. It 
was my impression at that time it was inadequate. The systems 
were not as efficient as they could be, and consequently we 
have a study in progress which is due for a publication of 
their final result in December of this year, which hopefully 
will make some appropriate recommendations on the direction 
that we should go in our data collection efforts.
    Mrs. Chenoweth. Mr. Joslin or Mr. Wasley, I'm interested in 
more than data collection systems. I'm interested in knowing 
how Forest Service law enforcement personnel are relating to 
citizens in the forests. And it's not good. It reaches far 
beyond 14 incidences. If there were just 14 incidences of 
offenses or complaints, I, believe me, we would not be having 
these hearings. But everywhere I turn, there are complaints. 
And my greatest concern is that what happened upon your hiring 
and with this administration is that we're seeing a 
centralization of everything regarding law enforcement here in 
Washington, DC, under your command. And this is chilling. And 
it is not in keeping with the general attitude that had 
prevailed about the Forest Service being a land management 
agency. And so, I really do want more. I do need the 
information from a sufficient data collection system, and the 
agency has had 2 years to do that. And the report that we got 
from GAO is totally inadequate, not because Mr. Hill and GAO 
don't do good work--normally, they do. No one, no one can get 
the information. It's all contained within you. And that cannot 
continue to exist.
    I am launching this in a hearing today. But tomorrow, it 
will become a major national issue, no matter what the 
consequences may be unless we can work together to see a better 
reporting system to the Congress, and unless we can see more 
responsibility and more jurisdiction and accountability in the 
local level. This centralization for law enforcement in the 
Forest Service is not good.
    Mr. Wasley, if we were to set up a system in the northwest 
where we could have people illegally growing drugs, you have 
managed to set it up, along with the Forest Service in their 
land management policies, to a degree that it would be a drug 
growers dream, because you simply don't have enough agents to 
get into the millions and millions and millions and millions of 
square acres to see what's going on in terms of growing 
cannabis or whatever else may be going on in the public land.
    In addition to that, we're shutting off roads and trails 
and access by humans. In addition to that, we are charging fees 
to humans to access the back country. Now what better system do 
we have in America than to set up a system like that? I am 
truly alarmed. And that's why we are launching into a series of 
hearings on law enforcement in the forests. As far as I'm 
concerned, you get a D minus minus for this. It's not working. 
It's not only broken, it's working with an adverse effect.
    So, let me continue with some questioning, and then I will 
defer to Mr. Peterson. In your testimony, Mr. Joslin, you 
stated that the Forest Service grants full range law 
enforcement authority, the authority to carry and use defensive 
equipment only to law enforcement officers and criminal 
investigators. Is limited range law enforcement authority 
granted to any non-law enforcement officers and criminal 
investigators?
    Mr. Joslin. No, I'll let Mr. Wasley answer that. But we 
only want those people that are specifically trained in order 
to handle that.
    Mrs. Chenoweth. Mr. Wasley?
    Mr. Wasley. We have Forest Protection Officer program, 
where there is very limited authority given to those folks. But 
the primary responsibility for law enforcement clearly falls on 
the folks who work for me.
    Mrs. Chenoweth. Pardon me?
    Mr. Wasley. The law enforcement responsibilities within the 
Forest Service fall on those folks who work for me. In other 
words, the uniform branch and the agent branch.
    Mrs. Chenoweth. What type of law enforcement authority is 
granted to these individuals?
    Mr. Wasley. The full range of law enforcement abilities, 
such as the authority to carry firearms, to effect arrests, to 
serve search warrants to the affiants, and search warrants, to 
testify in court--the entire range.
    Mrs. Chenoweth. Where is that authority found?
    Mr. Wasley. There again, to my knowledge, it's codified in 
the United States Code.
    Mrs. Chenoweth. And which cite?
    Mr. Wasley. I would have to look that up. But I don't 
recall the specific cite.
    Mrs. Chenoweth. Do you have legal counsel sitting right 
behind you? Would you mind consulting with him?
    Mr. Wasley. I was just informed by counsel that it is at 16 
United States Code 559, and further by the Drug Control Act of 
1986.
    Mrs. Chenoweth. I'm sorry. I didn't hear you.
    Mr. Wasley. It's at 16 United States Code 559, and also in 
the Drug Control Act of 1986.
    Mrs. Chenoweth. Drug Control Act of 1996.
    Mr. Wasley. 1986.
    Mrs. Chenoweth. 1986. And specifically where is it granted 
to the Forest Service in the Drug Control Act of 1986?
    Mr. Wasley. I'm told that it's at 559C.
    Mrs. Chenoweth. 559C. 16559C.
    Mr. Wasley. Correct.
    Mrs. Chenoweth. What type of Forest Service employees would 
be granted this kind of authority?
    Mr. Wasley. Those personnel who have undergone certain 
training that we require.
    Mrs. Chenoweth. What kind of training do you require?
    Mr. Wasley. We have a basic law enforcement training that 
last 11 to 13 weeks in Glencoe, Georgia. And then there are 
specific training courses or modules offered after that.
    Mrs. Chenoweth. And what do they learn? What courses do 
they take in the training?
    Mr. Wasley. In the basic course, having participated in the 
basic course myself, you learn Federal law, you learn certain 
search and seizure requirements, you would learn defense 
tactics--firearms training, any special skills, that might 
belong to the Forest Service--perhaps backpacking, if you will. 
The entire range of basic law enforcement skills.
    Mrs. Chenoweth. How does that compare to the training of a 
DEA officer?
    Mr. Wasley. The basic training would be approximately the 
same, be it the Secret Service, Customs, DEA, FBI. They're all 
approximately the same--the core training that is.
    Mrs. Chenoweth. What is the typical background of one of 
your officers? What is their major usually?
    Mr. Wasley. Up until the present, we have taken the vast 
majority of the law enforcement folks from existing Forest 
Service ranks, so there's generally a pretty heavy background 
in forestry and the outdoors and all things germane to the 
Forest Service.
    Mrs. Chenoweth. So we take a biologist and give him a 3-
month law enforcement and law course, and expect him to perform 
all the duties that one would if they were in the FBI or the 
DEA or the local sheriff or a State patrolman, right?
    Mr. Wasley. That could be the case. We also, of course, 
take local deputies very often and make them Forest Service 
officers.
    Mrs. Chenoweth. Why, in your opinion, are the Forest 
Service employees better suited to enforce the law than the 
local law enforcement agencies?
    Mr. Wasley. Generally speaking, the Forest Service has a 
certain amount of skills that may not be possessed at the local 
level. There, again, it could have to do with backpacking, 
trailing, packing--all the forest skills that may not be 
readily possessed by--Of course, there are exceptions, but 
generally speaking it's the skill level that is--falls in our 
domain.
    Mrs. Chenoweth. Mr. Wasley, during a briefing with the 
Committee staff, you mentioned that you are currently working 
on standards for investigative staff, and that is it hard to 
set these standards because of the Office of Personnel 
Management. Would you please expand on why it is hard to set 
these standards?
    Mr. Wasley. There, again, I'm speaking from 30 years 
experience in this field. It's extraordinarily difficult to get 
a plan that satisfies all the requirements that are existence 
today. For example, what is fit for duty in the Forest Service 
may well not be what is fit for duty in the DEA, and may not be 
what is fit for duty in the Secret Service. The educational 
requirements are very, very different. And to get a consensus, 
to get a package through that we could apply unilaterally for 
hirees in the Forest Service is extraordinarily difficult.
    Mrs. Chenoweth. You also mentioned in that same briefing 
that training was an important issue; that people don't qualify 
because of lack of funding. Could you please expand on that?
    Mr. Wasley. People don't qualify, excuse me?
    Mrs. Chenoweth. Because of lack of funding.
    Mr. Wasley. I think that's a bit out of context. What I 
said was, if memory serves correctly, that our training 
packages have suffered due to lack of funding.
    Mrs. Chenoweth. What's the difference between the 8- and 
11-week training programs for law enforcement officers and 
investigators?
    Mr. Wasley. Certain specialized portions of it. For 
example, an investigator may well have more of a timber theft 
module, more of Archeological Resource Protection Act module. 
There may be more defensive tactics involved in one than the 
other.
    Mrs. Chenoweth. How does the 8-week training course differ 
from the 11-week training course specifically? Other than 
training? Tactics? I mean, what is it specifically?
    Mr. Wasley. Excuse me. I was informed that the extra 3 
weeks has to do with the, again, as I said, the skills levels 
involved. It may well focus more on the legal processes--what 
it takes to present a case, for example, in the United States 
court system or the local system, to understand the judicial 
process and also more of skill level development of anything 
that we do--the entire range.
    Mrs. Chenoweth. Mr. Wasley, I want to know particularly 
what the skill level is and what the difference is. This isn't 
exactly fair to you, either, because you've never been before 
my Committee. But I want to know specifics. What is the 
difference? And if your counsel can't advise you now, so you 
can get it on the record, that's a shame. Because I don't want 
to hear round, pear-shaped concepts. I want to know 
specifically what's the difference between the 8-week training 
system and the 11-week. Why the 3 week difference? Who 
qualifies for what at 8 weeks and who qualifies for what at 11 
weeks?
    Mr. Wasley. As a general response to this, I can tell you 
from personal experience.
    Mrs. Chenoweth. All right.
    Mr. Wasley. That GS-1811 series investigators, the 
investigative branch, will devote more of their time to the 
investigational attributes of the job--interrogation 
procedures, search and seizure procedures, surveillance 
procedures. Whereas, the uniformed branch of the Forest Service 
will be more inclined to have a basic approach to that, and 
also to develop more skills along the things that are inherent 
in the uniformed branch. It could be anything from weaponry 
practice to certain identification guides of things in the 
forest. The patrol function, if you will, which is very much 
akin to a county sheriffs' departments would be emphasized more 
with the uniform branch than would be the investigators.
    Mrs. Chenoweth. I wonder, Mr. Wasley, if you could do this 
for me? I wonder if you could submit to the Committee the 
training manuals and then maybe we can be more precise. We are 
going to have other hearings on this. And so in preparation for 
the other hearings, would you mind doing that?
    Mr. Wasley. Not at all.
    Mrs. Chenoweth. Thank you. And the Chair recognizes Mr. 
Peterson.
    Mr. Peterson. Thank you, Madam Chairman.
    I guess my question to the Forest Service would be what 
percentage of your crime control or enforcement is done by your 
officers and what percent is done by contracting with local 
agencies to enforce the law?
    Mr. Wasley. I don't think we have an exact percentage on 
that. Clearly, the vast majority, I will tell you from personal 
experience, is done by us. We have over 700 cooperative law 
agreements that greatly assist us in our function, but the vast 
majority of work done on national forest is done by us.
    Mr. Peterson. OK, tell me what are the most predominant 
issues in your law enforcement effort.
    Mr. Wasley. Anything from keeping the peace on a 
campground, drunk and disorderly, traffic accidents, search and 
rescue--that's on the uniform level. On the investigational 
branch, we have certain priorities--timber theft, archeological 
theft, wildland fire, cannabis eradication. Those are the 
primary investigational things we do.
    Mr. Peterson Is the majority of the enforcement on public 
land that you control done by your people?
    Mr. Wasley. Yes, that's correct. Now you--what kind of 
contracts do you enter into? With local?
    Mr. Wasley. With patrol agreements primarily, where they 
will be paid to patrol a certain area a certain number of times 
over a given period of time.
    Mr. Peterson. Well, I guess there's a real resistance, in 
this country of Federal police officers. In rural America, 
where you are--the DEA's not very popular there because of 
their tactics. And they don't like Federal police officers. The 
look at police as a local jurisdiction, at the State at the 
best, helping. I guess my theory would be that it would make 
more sense, because you're in rural areas where police 
protection is difficult to have, period. You don't have a lot 
of policemen running around the forest, on the outside of the 
forest as well as in the forest.
    But it seems to me, it would make more sense that you would 
have people with the expertise that's needed for the forest in 
the things you talked about. You would expand the ability to 
contract with local law enforcement because then you would be 
strengthening them that helps in the forest and those who know 
the people and know the area. It just seems to me that you 
would be doing a double service, because you would be 
strengthening law enforcement in the rural part of America, 
which is pretty thin, instead of having your own forces. And 
also at the State I come from, we had the game commission, 
which also assists in law enforcement. And I'm sure they patrol 
your lands, and it would seem to me that maybe they could be a 
part of that contract.
    Instead of having three and four and five different groups 
doing something, there would be an overall plan. And the locals 
would play a major role. You'd be the supervisors, using game 
commissions or whoever else is out there, because, you know, 
they have the right to make arrests on almost any crime, at 
least they do in Pennsylvania if they see it.
    So it just seems to me that we spread out a very thin 
resource historically in this country. And I'm not picking on 
the Forest Service. It's done routinely by States, too. Because 
we have all these different people working the same area, and 
we don't have enough people to begin with. But if it was a 
coordinated effort, it would seem to me it would make more 
sense. Would you like to respond to that at all?
    Mr. Wasley. I would say that cooperation is the rule rather 
than the exception. In my 20 months or so on the job, I've been 
all over the United States now. And I have talked to local 
sheriffs, police chiefs, deputies--as a matter of fact, I 
attended the Western States Sheriffs' Association. I'm a member 
of the National Sheriffs' Association, International 
Association of Chiefs of Police. The amount of actual 
complaints that I've heard from people at the working level are 
very minimum--are very minimal. They like our cooperation. And, 
in fact, what really happens is the cooperation is very good at 
the local levels.
    One of the problems that I have seen is, again, the local 
folks are spread even more thinly than we are very often. They 
have certain responsibility--the local folks--to respond to 
their population centers, which are probably not on the 
national forests. And one of the inherent problems of the 
scenario you just laid out, to think that we could get a county 
police or county sheriff's office to devote a disproportionate 
amount of their time to the national forest system, I'm 
skeptical of that.
    Mr. Peterson. Well, I guess my theory would be that if you 
furnished them with some of the resources you're spending, you 
could give them added capacity. And I don't think you'll find--
now there's exceptions--that most of your forest land is not 
real close to urban areas. It's not real close to a large 
population. It's kind of in the most remote parts of the 
country--at least the ones I'm thinking of at the moment are--
which has very limited law enforcement to begin with because of 
the sparsity of population. But I think we waste resources when 
we have State, Federal, and local agencies doing separate 
things in a rural area where you don't have enough people to 
begin with.
    And you're never going to have people out there that are 
going to observe most of the crimes. It's going to be. You're 
not going to catch people in the act real often. And let me 
conclude. I see my time's up. But the one issue I noticed in 
the Allegheny National Forest, which is in my district, is that 
one of the major problems we have there is that it's very 
fertile ground for growing marijuana. And I know the DEA has 
flights in there all the time. And they're surveilling now. 
They're getting ready to go out and harvest the crop ahead of 
the growers this fall.
    I'm critical of how they do that, because they basically go 
in and cut and burn and arrest very few people. I never see 
where they arrest anybody, but they do stop it from hitting the 
marketplace. And that's part of State police in Pennsylvania 
and the other groups that are part of that--it's kind of a cut 
and burn theory. And they do a lot of surveillance work all 
summer long, with low flights looking for the patches of 
marijuana growing in the Allegheny National Forest and trying 
to stop it from getting to the market.
    But there, again, it seems to me that we don't have a 
coordinated effort. I don't know what role your agency plays in 
that. But again, it would seem to me that would be more 
effective if there was a local, State, and national consensus 
of how we're going to do that. I guess I struggle with all 
these agencies trying to be there.
    I mean, you're out there to manage land. Law enforcement 
should not be one of your major roles. You should have people 
who know what's needed there, but it would seem to me using 
State and local resources it would be more cost effective and 
more productive. That's just my own personal theory.
    Mr. Wasley. There again, I would say we are probably more 
coordinated than you might notice at first glance. There again, 
I've had hands on experience, especially with marijuana 
eradication. And it is really a team effort. If you look at the 
agencies involved on a sheet of paper, it may look disjointed. 
But in fact when things happen, it's my experience that things 
happen properly and they come together. Of course, errors are 
made, and, of course, there's some inefficiency, and, of 
course, we can improve. But generally speaking, the law 
enforcement that I found in the Forest Service is at least well 
coordinated.
    Mr. Peterson. We thank you.
    Mrs. Chenoweth. The Chair recognizes the gentleman from 
Colorado, Mr. Schaffer.
    Mr. Schaffer. Thank you, Madam Chairman. I have a number of 
questions. I didn't notice in your--I was not here for your 
testimony. I had a chance to just briefly go through it. But 
the Star Mountain Report suggests that targeted block grants 
could be a means to supplement these cooperative agreements, 
and I didn't notice that you addressed that in here. What kind 
of thought or consideration has been given by your or your 
department to that particular recommendation?
    Mr. Wasley. There again, my remarks are based on not my 20 
months in the Forest Service, but 30 years in law enforcement. 
I'm suspect of block grants for a couple of reasons.
    First of all, I'm suspect of their ability to be properly 
accountable. If blocks of money were given to, say, a county 
sheriff, I'm not sure that we would have the wherewithal to 
ensure that those moneys would directly benefit the national 
forest system. County sheriff, city police, other agencies have 
other conflicting priorities, which may take some of that block 
grant money, and thereby not give us enough bang for the buck, 
if you will. That's a personal opinion.
    Are we exploring it? Of course, we're exploring it. We're 
looking at it as a possibility. As a matter of fact, as we 
speak, I have a study underway right now to examine all of our 
700 plus cooperative law enforcement agreements, some of which 
have not been audited since 1971. So I'm having this study done 
now. And, as a matter of fact, on the 14th of July, I'm meeting 
with the folks involved in that study in Denver, hopefully to 
give me some insight on what they've found.
    Mr. Schaffer. Well, let me go at this cooperative issue 
from another direction then and that is why do we enter into 
these cooperative agreements with local law enforcement 
agencies in the first place?
    Mr. Wasley. We need their assistance. That's the short 
answer. We cannot do our job alone. The State, city, county 
officers have primary jurisdiction for State laws on the 
national forest system. They, in fact, do that sort of 
enforcement all the time. We have a certain responsibility, a 
resource protection responsibility which I think fits nicely 
with their state enforcement responsibilities. Hence, some sort 
of cooperative agreement has to be codified, has to be put to 
paper. You will do this, and for your services we will 
reimburse you this amount. And frankly speaking, in some places 
we get a good bang for the buck and other places apparently we 
don't. Consequently, I've ordered an audit of all of our 
systems--all of our agreements.
    Mr. Schaffer. This focuses primarily, you know, the report, 
the whole hearing and so on today is primarily focused on 
management, which is important. But an important part of 
managing this budget, staff, and allocating them, and so on 
also entails a certain amount of preventative activities that 
try to drive down the occurrence of crime and the need to 
police national forests to the extent that we do so far. Can 
you give me an idea? Why are we seeing an increase in the need 
for law enforcement for our agents to be placed in more 
dangerous situations, more now than 10, 15 years ago? What is 
the cause for the trend and the need to police national parks, 
public lands, and public places more vigorously?
    Mr. Wasley. I think the short answer is simply 
demographics. If you have 800,000,000 visitors now and a 
billion visitors within a couple years time, there's going to 
be criminality that's going to follow that upward trend of 
visitors. And the forests will unfortunately suffer that. To my 
knowledge, there are very few non-urbanized forests in the 
United States now. Even the ``rural forests'' are suffering the 
effects of urbanization and more visitor days. You cannot avoid 
criminality. There is going to be certain ilks of persons that 
patronize the forests that are going to bring their criminality 
with them. Consequently, the responsibility for this within the 
forest falls on us.
    Mr. Schaffer. Has there been any thought given--you know, 
the Forest Service, without question, is moving away from the 
concept of multiple use and having a number of folks involved 
in national forests for economic activity of various sorts, and 
we've kind of moved away from that. Has there been any thought 
given or analysis done as to whether moving toward forests that 
are less functional from an economic perspective had any impact 
on criminal activity?
    Mr. Joslin. When you ask that--could you repeat that? I'm 
not sure I understand.
    Mr. Schaffer. Yes, I don't think there's any question--
well, there may be in some people's minds--but there's not much 
question that we're moving forests away from the whole concept 
of the land of many uses. You took that off the signs, for 
example, when you enter the forests. Economic activity of 
various sorts, whether it's timbering or grazing or mining and 
so on, seem to be restricted rather than encouraged. And 
there's a different type of activity and focus of the national 
forest system now than it was 50 years ago. I'm just curious as 
to whether anybody that there's some correlation between the 
shifting or drifting vision of the Forest Service and criminal 
activity that takes place on Forest Service land.
    Mr. Joslin. I don't think we've looked at that. But I think 
that, you know, we're still managing those lands out there for 
multiple uses. Granted, the amount of that is certainly varied, 
but I don't think there's been any kind of studies like that. 
And I'm not sure that there would be a correlation. There's 
just so many more people that are coming out there, using those 
national forests, those public lands nowadays that it's mind 
boggling. As I know you're well aware in your particular part 
of the country too, more and more people out there everyday.
    Mr. Schaffer. Well, I don't mean to mischaracterize my part 
of the country. You know, a lot of kids from the city who are 
out having a--out carousing in the national forests, sometimes 
they have more respect--well, sometimes they seem to be more 
afraid what may happen to them if they start messing around 
with somebody's cattle out there in the middle of woods than 
they are if the start harassing, you know, a nice innocent 
family having a--you know, trying to catch a night's sleep in 
the camper next door. And it seems to me that when there are a 
number of--when there are more vested interests in managing and 
being a part of our national forest system that you just kind 
of engender a little more respect for your friends and 
neighbors and for the outdoor and for the law than when you're 
simply dealing with a government agency. You know, again, if 
you haven't looked into that, or if nobody has, that doesn't 
surprise me.
    But it seems to me, though, just from the way people behave 
out west anyway that, you know, it would just seem to be more a 
polite society when you had a bunch of ranchers, farmers, 
loggers, mining companies, and so on all maintaining their 
varied and assorted public interest in maintaining a strong 
national forest system.
    Mr. Joslin. I think the other thing that would go along 
with that, too, is the understanding and appreciation for 
natural resources out there has really gone down. The more 
people come out there, we haven't been able to get that message 
across to them, which I think really relates to what you're 
talking about.
    Mr. Schaffer. Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, Mr. Schaffer.
    Mr. Wasley, I want to ask you when there's a complaint with 
regards to the Forest Service law enforcement activities, how 
are they documented? What is the process for documentation?
    Mr. Wasley. It's put to paper. It really depends on the 
method by which we receive it. If it's a verbal complaint, say, 
to a Forest Supervisor from a citizen on the national forest, 
we would ask that it somehow be reduced to writing, so we have 
some document. We have a computer system in which these 
complaints are placed. All the complaints that we received--
formal complaints--are going to be investigated, either by us, 
by the Department of Justice, by the Inspector General, or by 
the Forest Service non-law enforcement.
    Mrs. Chenoweth. Well, what happens when a citizen doesn't 
know how to make a formal complaint because the regional 
forester or Forest Supervisor will say, I don't have any 
jurisdiction over that. And they don't record the complaints 
because they say all the jurisdiction has been centralized in 
Washington, DC, so don't talk to me about it. So how do we 
get--how do you find out through documentation? Or what system 
is in place for you to know? I mean, it's not fair to you, Mr. 
Wasley, for me to hear all the complaints, and, as you can 
tell, I'm pretty concerned about it. And you not know why I'm 
concerned: because you're not getting the information. How 
would a normal citizen who is, say, stopped on a snowmobile 
asked to stop his snowmobile, is searched, and then issued a 
ticket for operating a snowmobile on a road that he's operated 
it on for 30 years. How would we make a complaint that could be 
documented and get to you and the chief?
    Mr. Wasley. If the person--we're speaking hypothetically 
now--on this snowmobile went to the, say, district ranger and 
received no satisfaction certainly that person would have the 
wherewithal to go to the next level, which might be the 
district ranger's supervisor. I would. If I got no satisfaction 
there, I would probably call my Congressman.
    Mrs. Chenoweth. Do you realize that that's going on in the 
field, that the rangers and supervisors are saying we have no 
jurisdiction over this activity, we have no jurisdiction over 
those Forest Service employees who are issuing tickets?
    Mr. Wasley. That statement may be made, but I will tell you 
this that, again based on my history and the fact that in the 
Secret Service, I served 2 years in the internal affairs 
division of the Secret Service, all complaints will be 
investigated. And if I find someone that is not bringing 
complaints forward in my branch, then appropriate action will 
be taken.
    Mrs. Chenoweth. What juncture in time and in documentation 
occurred so that all jurisdiction rested with you? When did 
that happen? And it was taken away from the local rangers and 
local forest supervisors?
    Mr. Wasley. It was in Fiscal Year 1994--October 1993.
    Mrs. Chenoweth. Pardon me?
    Mr. Wasley. October 1993, which would be Fiscal Year 1994.
    Mrs. Chenoweth. And what documentation was issued that made 
that change? Was it statutory authority?
    Mr. Wasley. If memory serves, there was congressional 
intent to go that way, and the chief of the Forest Service at 
that time made the decision. It was an internal decision where 
it was actually implemented. But I believe congressional intent 
was that we go to the current straight line reporting 
organization.
    Mrs. Chenoweth. Mr. Wasley, I wonder if you would submit to 
the Committee all the complaints that have been made to you, 
that have gotten to you in the last 3 years?
    Mr. Wasley. OK. Fine.
    Mrs. Chenoweth. OK, it won't be hard, there's only about 21 
documented.
    Mr. Hill, can you advise the Committee what documentation 
or what executive order or what was issued to allow for the 
centralization of law enforcement jurisdiction?
    Mr. Hill. My recollection--our understanding of some of the 
concerns that caused that to happen dealt with providing 
independence to the law enforcement staff. I think there were 
some concerns and issues back in 1993 about complaints that 
were being made concerning Forest Service employees that were 
not being investigated at the time because basically they were 
investigating themselves. I think the general feeling there was 
there was a need for some independence in the law enforcement 
staff that could, therefore, go ahead and investigate these 
things.
    Mrs. Chenoweth. Isn't it in your testimony that in 1993 
there was a document issued that made this change?
    Mr. Hill. I'm not certain what you're referring to in terms 
of documentation?
    Mrs. Chenoweth. Was there an order issued by the chief or a 
report issued by the chief?
    Mr. Hill. I'm not certain of that, Madam Chairman. We could 
look at that and get back to you on that one.
    Mrs. Chenoweth. OK, I have seen it. I had studied a lot of 
things last night. And I did see it. I thought it was in your 
testimony.
    Mr. Hill. I apologize. We could research that and provide 
it for the record.
    Mrs. Chenoweth. All I want to know is where they get their 
authority to make a centralized system--set up the centralized 
system that they're operating under now?
    So, whoever can provide that for me, I'd appreciate it.
    Tell me, Mr. Wasley, what written report--what kind of 
written report do you give to the chief, and can we have copies 
of that for the Committee?
    Mr. Wasley. The reports that I give to the chief are 
primarily verbal. If there's a particular situation or an 
issue, then I generally put it in memorandum format.
    Mrs. Chenoweth. They are verbal. They are not written?
    Mr. Wasley. It really depends on the nature of the issue. 
For example, I would be not doing my job if I was to put to 
paper the elements of an ongoing criminal investigation that 
the chief should be aware of, lest that become discoverable in 
a criminal case. I would be more inclined to tell the chief 
verbally the nature of the criminal case, so he's aware of 
what's happening. This is very, very common practice--not to 
put such thing to paper.
    Mrs. Chenoweth. Mr. Wasley, this is not common practice in 
the Forest Service. It may be common practice in the Secret 
Service, but that's why I mentioned in my opening statement 
this has become a stealth organization, operating under the 
radar of the Congress. We must have documentation. This is not 
the Secret Service. This is the United States Forest Service, 
and we expect documentation. And I hope that we, as required 
and as mentioned in the Star Mountain Report, I hope that we 
will see systems implemented so that there will be 
documentation and soon. This is an embarrassment, sir. And I 
don't know who's idea this was, the chief is not here today. 
But it is absolutely wrongheaded.
    Recent articles revealed that the training exercises by 
anti-timber tourist groups have continued to expand. They train 
extremists in how to block roads, damage roads, and otherwise 
block and disrupt Forest Service and timber management 
activities. The result is damage to Federal property to private 
property and disruption of lawful government and commercial 
activity. What has the Forest Service done to interdict such 
activities under conspiracy or Rico statutes?
    Mr. Wasley. We have an open line of communications with the 
Federal Bureau of Investigations who is the primary agency in 
this sort of domestic terrorism. We have agents that work 
cooperatively with the FBI almost on a daily basis on these 
issues.
    Mrs. Chenoweth. OK, that's a question that we need more 
detail on, sir. This activity is widespread in the northwest. 
It's fiercesome. And I'd like a written report as to what the 
Forest Service has done to interdict such anti-timber terrorist 
group activities under conspiracy or Rico standards. Would you 
mind submitting a report to the Committee?
    Mr. Wasley. I will.
    Mrs. Chenoweth. Thank you, sir.
    What are the criteria in deciding whether to seek civil 
recovery of damages in these cases?
    Mr. Wasley. The first--the first consideration, of course, 
lies with the United States Attorney. It's the United States 
Attorney that makes the prosecutorial decision whether or not 
to proceed or not to proceed. And once we do the investigation, 
the choices, the decisions are in the Department of Justice. 
It's not in the Forest Service.
    Mrs. Chenoweth. But leading up to that decision, what are 
the criteria in deciding whether to call in the U.S. Attorney's 
office?
    Mr. Wasley. In every criminal matter, the United States 
Attorney office will be contacted.
    Mrs. Chenoweth. Would you mind making a report to the 
Committee with regards to the criteria that you have lined out 
in deciding whether these anti-timber terrorists groups, their 
activities when they have to do what they must rise before you 
decide whether to call in the U.S. Marshall or the U.S. 
Attorney office?
    Mr. Wasley. We call them in any case.
    Mrs. Chenoweth. In any case?
    Mr. Wasley. I would be happy to submit a report, but we 
call the United States Attorney on any matter like that. Any 
criminal matter, especially involving eco-terrorism or 
terroristic things involving timber or any other matter on the 
national forest system, the United States Attorney's office 
will be contacted.
    Mrs. Chenoweth. Do you ever recommend that we seek recovery 
of damages for the Forest Service, Mr. Joslin?
    Mr. Joslin. Yes, we do that. We make recommendations, 
whether it be timber theft or damages to road or whatever it 
is. Our resource specialists in the field compile the 
information that constitutes the amount of damage, so that's 
what we use in working with the law enforcement and 
investigation folks to help provide the recommendations in 
those situations.
    Mrs. Chenoweth. Well, as a matter of policy if significant 
damage, say, tens of thousands of dollars is done to Federal 
land or property, shouldn't they claim for recovery always--
always be sought?
    Mr. Joslin. We may recommend but the United States Attorney 
may not follow through.
    Mrs. Chenoweth. Now, my line of questioning is because it's 
law enforcement who has the responsibility to investigate 
crimes, not the U.S. Attorney. And so, as you make your report, 
please understand that is the direction that I'm taking this 
questioning.
    One more time, we do need a copy at every briefing--of 
every briefing memo given to the chief on law enforcement 
activities for the last 3 years, or since the time you were 
hired. OK?
    All right, I defer to Mr. Schaffer from Colorado.
    Mr. Schaffer. Thank you, Madam Chairman. I have more 
questions on the issue of cooperation with local agencies, just 
so I can try to get an idea for myself when we're--when these 
cooperative agreements make sense and when they don't, along 
those lines. Can you tell me when--what kinds of things can 
only be done by Federal law enforcement agents on Federal 
lands, as opposed to contracting completely perhaps with the 
country sheriff or the State division of wildlife. Tell me when 
you're the only guys who can do it.
    Mr. Wasley. From my personal experience, I saw on the Tonto 
National Forest, for example, that the county sheriff, working 
in concert with our folks out there, would not cite for 
particular Federal violations, i.e., bringing bottles on a 
beach. It was against Federal regulations to bring breakable 
things on the beach, lest they be broken and people cut their 
feet. The country sheriffs who were there in force, who was the 
Maricopa County sheriffs, deferred totally to the Forest 
Service to write this kind of ticket.
    Mr. Schaffer. Was there an agreement in this case with 
them? Were they being compensated?
    Mr. Wasley. There was no need. It was just law. There was 
no need for such an agreement. I mean, because as police you 
know what you're going to do. On the other hand, if there was a 
fight, certainly the Forest Service folks in uniform would 
assist the county sheriffs, but the county sheriffs or deputies 
would make the arrests.
    Mr. Schaffer. Are there any specific crimes that occur on 
national forest lands that are unique to Federal law 
enforcement that States or counties just are incapable of 
dealing with?
    Mr. Wasley. Much like certain Federal agencies--other 
Federal agencies have expertise--ATF and firearms, Secret 
Service and counterfeiting, FBI and perhaps in kidnaping--the 
Forest Service does a really good job in timber theft, 
archeological resource protection, and wildland fire arson. A 
county sheriff's department would certainly defer investigation 
to us on those issues. And also cannabis eradication, quite 
honestly.
    Mr. Schaffer. Now, again, that is with an agreement or just 
as a general course of being, you know, a national forest 
that's in a certain county?
    Mr. Wasley. It would be by general knowledge. There may 
well be an agreement that would spell that out. I don't know 
the particulars of all 700 agreements, but I would say the 
vast, vast, vast majority of county sheriffs and city police 
would understand that.
    Mr. Schaffer. In the--hang on a minute. Sorry about that, 
Madam Chair. The--you mentioned earlier about those occasions 
when you end up calling the FBI or DEA and others, how often 
does that occur?
    Mr. Wasley. In my tenure, very, very rarely. We had a 
particularly vicious arson in the northwest, which we're 
working still very closely with the FBI on. We had a kidnap 
case of one of our employees in Oregon and we worked hand in 
hand with the FBI. Most recently, the unfortunate shootout and 
killing in Cortez, Colorado. We were involved--the FBI was 
there.
    There's not really much friction at all between the Forest 
Service and DEA or FBI. As a matter of fact, I lunch monthly 
with the heads of those agencies, and we have an open dialogue.
    Mr. Schaffer. But do you end up consulting them for their 
help and assistance when these investigations become broader 
than Forest Service boundaries?
    Mr. Wasley. Oh, of course.
    Mr. Schaffer. Or multi-state? I guess that's what I'm 
asking. How often does that occur? Is that rarely? Is it----
    Mr. Wasley. Yes, I'd say rarely.
    Mr. Schaffer. Is it couple, three times a year? Is it 50 
times a year? What?
    Mr. Wasley. I can't give you a number, but I would say 
rarely. It has nothing to do with turf protection or anything 
like that. It has to do only with--they offer--we would seek 
their expertise when we deemed it necessary. And if they--
certainly, we have, again, open lines of communication with 
those agencies, so there's nothing being done in a vacuum.
    Mr. Schaffer. With respect to these organizations that 
exist to essentially train members and perpetuate this eco-
terrorism, are those the kind of issues where outside agencies 
are consulted and where their advice is sought?
    Mr. Wasley. Yes. We simply don't have the expertise--well, 
I can't say the expertise--we don't have the resources 
available to conduct our own investigations of that type of 
group in general. There may be certain exceptions from time to 
time. But in general, the FBI is far, far, far better equipped 
to handle investigations of those groups.
    Mr. Schaffer. Are they handling any of those investigations 
right now?
    Mr. Wasley. The short answer is yes.
    Mr. Schaffer. How often, just generally, on those types of 
issues are they consulted during the course of a year?
    Mr. Wasley. Do we consult the FBI on that?
    Mr. Schaffer. Yes, on those--of those kinds of cases.
    Mr. Wasley. Again, I would say specifically in certain 
portions of the United States, we have a daily dialogue.
    Mr. Schaffer. Well, am I the chairman now? Oh, there she 
is. I thought maybe she ran to the floor.
    I don't have any more questions.
    Mrs. Chenoweth. Thank you, Mr. Schaffer. We do have a vote, 
and so I will recess the Committee for 20 minutes. We will make 
the vote and come right back. And so this Committee stands 
recessed.
    [Recess.]
    Mrs. Chenoweth. The Committee will come to order. Mr. 
Wasley, I wanted to continue with my line of questioning. 
During a briefing to Committee staff, you mentioned that you 
report directly to Chief Dombeck, but you also mentioned that 
you report to Francis Pandolfi and that he and the chief are 
one in the same. What was your rationale for reporting to Mr. 
Pandolfi in lieu of the chief regarding law enforcement 
activities?
    Mr. Wasley. It think it fair we have to clarify the 
statement there--they are one and the same. I probably meant in 
terms of a reporting. That said, Francis is a day-to-day 
operational reporting that I have. Events that would occur on a 
day-to-day basis I would probably pass those more to Francis 
than I would to the chief. I would probably give the chief a 
summation rather than an ongoing report. So.
    Mrs. Chenoweth. Well, how do you provide this information 
to Mr. Pandolfi, in a memo, or e-mail, or verbally?
    Mr. Wasley. All of the above. All of the above. I use e-
mail. We have the IBM e-mail system which I use. Yesterday, for 
example, I sent Francis several status reports of an ongoing 
situation we have in New Mexico now. And I saw no purpose in 
sending the chief status reports. What I'll probably do with 
the chief is, as I get a trend or a situation develop that I 
think is worthy of his note, then I'll send him a condensed 
version. I will keep Francis apprised of the day-to-day stuff.
    Mrs. Chenoweth. What type of law enforcement issues have 
you reported to Mr. Pandolfi specifically? Could you give us an 
example other?
    Mr. Wasley. The most recent, again, happened yesterday.
    Mrs. Chenoweth. Yes, I am aware of that. But other than 
that what type of issues have you reported to Mr. Pandolfi?
    Mr. Wasley. The Cortez City Police Department killing, 
where we are directly involved. A series of other 
investigations that were ongoing I've reported to Francis. We 
had another shooting in Georgia I believe it was, and I don't 
recall the forest there, wherein a camper shot three burglars. 
This type of day-to-day events that may well be newsworthy when 
I get them, I would prefer that the chief and Francis get them 
before they read about them in the newspaper.
    Mrs. Chenoweth. What does Mr. Pandolfi do with the 
information that you provide to him regarding law enforcement 
issues?
    Mr. Wasley. I would assume that he passes it on to the 
chief.
    Mrs. Chenoweth. You would assume. Does Mr. Pandolfi--you 
don't know if he does pass information on to the chief?
    Mr. Wasley. Certainly, in some cases he does because the 
conversations I've had with the chief reflects a certain level 
of understanding of issues that he would have had to have 
gotten somewhere, and I assume it was Francis.
    Mrs. Chenoweth. Is there anyone else with whom Mr. Pandolfi 
shares the law enforcement information that you provide to him?
    Mr. Wasley. It probably depends on the nature of the 
information. If some of the information is sensitive, I would 
ask that he hold to himself and share only with the chief. 
Other information may have impact on other deputy chief areas 
within the Forest Service, at which time I would assume that he 
would pass it on as he sees fit.
    Mrs. Chenoweth. I had earlier asked you to provide for the 
Committee all copies of reports that you have made to the 
chief. Let me be very specific. I wonder if you would provide 
for the Committee copies of all e-mails or memos or memos to 
the files with regards to verbal reports that you have provided 
to Mr. Pandolfi or anyone else.
    Mr. Wasley. OK.
    Mrs. Chenoweth. Pardon me?
    Mr. Wasley. Yes, ma'am we'll try.
    Mrs. Chenoweth. Pardon me?
    Mr. Wasley. We will try.
    Mrs. Chenoweth. Will you do that?
    Mr. Wasley. Yes, I will do that.
    Mrs. Chenoweth. All right. Would you also submit to the 
Committee a list of all computer systems and brief description 
of their purpose and sample of the data fields used to collect 
the data, who has access to these systems, and what reports are 
created from each system?
    Mr. Wasley. Yes.
    Mrs. Chenoweth. Thank you.
    Mr. Wasley, in a recent news article I read that as a 
result of a loophole that exempts some ex-Secret Service 
workers that you are able to receive your entire pension of 
$44,600 a year on top of your salary of $110,000 for a total of 
$154,600 a year, more than a Cabinet member's salary. Is this 
fair? And?
    Mr. Wasley. The figures are not correct.
    Mrs. Chenoweth. Would you clarify that for us?
    Mr. Wasley. Only the figures are not correct. I will 
clarify anything that's a matter of the public record.
    Mrs. Chenoweth. What is correct with regards to your salary 
and your pension?
    Mr. Wasley. The simple fact is I collect a salary of 
$110,700 a year as a GS-15 Step 10 with the Forest Service. As 
a retiree and an annuitant under the DC Police and Fire system 
I was entitled to a certain percentage of my service time with 
the United States Secret Service. I collect that also.
    Mrs. Chenoweth. And that pension is $44,600 a year.
    Mr. Wasley. No, it is not.
    Mrs. Chenoweth. What is it?
    Mr. Wasley. I'm not sure that's germane to this hearing. 
And I'm not attempting to be flippant or anything else. I 
believe this is a private matter, and I don't believe my 
retirement annuity is subject to the public record.
    Mrs. Chenoweth. You've been with the agency for almost 2 
years, yet the reporting requirements and accountability 
measures of your department are almost non-existent, sir. And I 
would imagine that even the Secret Service has better 
accountability than the Forest Service law enforcement does. 
How do you account for this lack of accountability?
    Mr. Wasley. Speaking for the law enforcement investigations 
division, we are a new--relatively new organization, born only 
in 1994. There are certain adjuncts to our organization that 
take time to develop. The necessity for true data to be 
collected and utilized in staffing and in all decisionmaking 
process was not inherent in former Forest Service law 
enforcement structure. I'm trying to make it that way now.
    Mrs. Chenoweth. What is the rate of turnover in your work 
force?
    Mr. Wasley. Very low.
    Mrs. Chenoweth. You mentioned large events as a special 
challenge. What can you tell us about the Rainbow Family event 
that is planned for early July that is already getting underway 
in eastern Arizona?
    Mr. Wasley. As of yesterday, we have 3,000 or so Rainbow 
Family folks there on the Apache Sitgraves National Forest. We 
have made, to my knowledge, three arrests so far. There have 
probably been somewhat less than 100 incident reports--anything 
from complaints to injuries, to the traffic accidents--all of 
the things you might imagine with that sort of gathering. 
That's as of this morning.
    Mrs. Chenoweth. How will this event impact your ability to 
meet other law enforcement needs?
    Mr. Wasley. Certainly, we have limited resources. We have 
to devote a certain amount of resources to this gathering. 
There will be some impact. At this time of the year, I don't 
think it's going to be measurable.
    Mr. Joslin. Madam Chairman, if I could?
    Mrs. Chenoweth. Yes, Mr. Joslin.
    Mr. Joslin. Not just the impact of large group gatherings 
such as the Rainbows on the Apache-Sitgraves in eastern Arizona 
is not only on law enforcement, but also on our regular work 
force to deal with those situations. And every year, as you 
know, they're somewhere, always on a national forest. And what 
we have set up there is an incident command team, the type of 
command team that we use for fires and other large events, and 
the law enforcement folks are a part of that. But it's all done 
in cooperation with the local and State law enforcement 
agencies. So it's an impact not only on our law enforcement 
people, but all the rest of our people in those areas, plus the 
other law enforcement agencies involved. It's a tremendous 
impact.
    Mrs. Chenoweth. Thank you. How do you feel that this 
Rainbow Family event will impact your overall costs to the 
program?
    Mr. Wasley. We have budgeted a certain amount for this type 
of large group gathering. I don't know the figures off the top 
of my head. But we have planned for this.
    Mrs. Chenoweth. Let me say that I'm about to draw this 
particular hearing to a close. We will have other hearings on 
this issue. We will be asking you for more information. But, in 
closing, we are going to follow through with more oversight 
into this exceedingly important issue. And we'll be working 
with the GAO to do a much more detailed investigation into the 
data collection and reporting mechanisms within this agency. We 
will also be doing a complete analysis of the legal authorities 
for law enforcement activities for the agency. We need to 
understand exactly who has what authority by law so that we can 
better determine how best to coordinate law enforcement 
activities. And we would appreciate your submitting all of the 
data which we requested today in a timely manner. I would like 
to ask before I make my closing statement if there is anything 
else anyone would like to add for the record.
    Mr. Woodward?
    Mr. Woodward. No, thank you.
    Mrs. Chenoweth. Thank you. Mr. Hill?
    Mr. Hill. No, thank you, Madam Chairman.
    Mrs. Chenoweth. Mr. Joslin.
    Mr. Joslin. One thing that I would add is in connection 
with law enforcement national forest system, the area that I 
work in, we hold meetings daily--on a daily basis. Mr. Wasley 
has at least one member of his staff there are those meetings 
to keep us fully informed, and we, in turn, keep his folks 
fully informed of activities going in the national forest 
system so that we are coordinated in that fashion. And thank 
you for the opportunity to be here today.
    Mrs. Chenoweth. You're welcome.
    Mr. Wasley?
    Mr. Wasley. I would just like to comment on our, the 
officers' routes to the local community. I just had the good 
fortune to travel to Kentucky, where I worked with two law 
enforcement officers in the Forest Service who had spent in 
excess of 25 years in the very communities where they were born 
working for the law enforcement agency of the Forest Service. I 
gave an award earlier this year to a person, a law enforcement 
officer from California who had spent 31 years in the same 
community. All I'm doing is emphasizing the fact that we do 
have very close ties--local ties to local communities in the 
Forest Service.
    Thank you for the opportunity to testify.
    Mrs. Chenoweth. You're welcome. I'd like to also offer my 
condolences to the family of national park service ranger Joe 
Kolodski for this very tragic death in the Great Smokey 
National Park on Sunday. He was killed by a man who was 
threatening visitors with a rifle. And I understand and 
appreciate that law enforcement is a very dangerous profession.
    What measures is the Forest Service taking to protect their 
employees is a question that I think we all have to ask. And, 
again, I did want to mention him by name for the record.
    There have been criminal activities in the forest. I think 
a lot of what precipitated this was outlaw theft of timber and 
logs, and then, of course, so many more people are entering 
into our national forests as their vacation choice. So this 
hearing and the other hearings are being held to determine how 
best to make sure that we have the most efficient law 
enforcement system, while still remaining very responsive to 
the local citizens. The last thing I think any of us want to do 
is create a Federal law enforcement system that is not 
accountable and that is not responsive and that is angering 
people out in the west or on public lands.
    I don't think that those results are anything that we 
share, and I think that we need to work together to try to 
reach a better result than what seems to be emanating out the 
starts of this new system. I do seriously question the legal 
authority for such a broad law enforcement agency that is 
operating in other offenses outside of drugs. And, as I said 
earlier on, one of the things that we're very concerned about 
in the west is we have a situation where economic activity has 
been pushed out of the forest. Even our roads and trails are 
being closed to human recreational activity. And so it is a 
perfect setting for those who want to brave the elements in 
order to raise a lot of illegal drugs.
    And I speak from a certain amount of experience, having 
just gone through it about a year ago, a huge drug bust that 
was, in part, on private land, and, in part, on public land in 
Idaho--it was huge--and have received many reports about drug 
growing activity in the back country. So we need to take a 
broad look at what we're doing with regards to either 
discouraging or actually encouraging illegal activity.
    So with that, I want to thank you all for your time and 
your effort. I will be back to you with other hearings. And I 
do want to say that the record will remain open for 10 days for 
any corrections or additions you may wish to make to the 
record. And I will be back in touch with personally, 
individually with regards to future hearings. Thank you very 
much. And with that, this hearing is adjourned.
    [Whereupon, at 12:11 p.m., the Subcommittee adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
Statement of Barry T. Hill, Associate Director, Energy, Resources, and 
               Science Issues, Development Division, GAO

    Madam Chairman and Members of the Subcommittee:
    We are pleased to be here today to discuss law enforcement 
activities in the Forest Service. My remarks today are based on 
a report that we issued in July 1997.\1\ That report was done 
at the request of this Subcommittee, among others, and asked us 
to provide information on a number of questions about key 
aspects of the Forest Service law enforcement activities. Most 
of the information we provided focused on two areas: (1) the 
numbers of employees involved in law enforcement activities, 
and (2) the costs associated with these activities. In 
addition, you asked us to provide some information on other 
aspects of Forest Service law enforcement including interaction 
with other Federal, state, and local law enforcement agencies; 
the number and types of crimes committed on national forest 
lands; and the number of complaints against the agency's law 
enforcement staff.
---------------------------------------------------------------------------
    \1\ Federal Lands: Information About Law Enforcement Activities 
(GAO/RCED-97-189R, July 3, 1997).
---------------------------------------------------------------------------
    To meet the needs of the Subcommittee, our 1997 report was 
prepared under very tight time frames. To obtain the 
information we needed in the time frame requested, we obtained 
information that was readily available from Forest Service 
headquarters, and we did not have the time necessary to assess 
or verify the accuracy of the data we obtained. Our report was 
based on fiscal year 1996 data which was the latest available 
at that time. In preparation for this hearing, we worked with 
the Forest Service to update much of the information we are 
providing to fiscal year 1997.
    In summary, in fiscal year 1997, the Forest Service's law 
enforcement program included 708 agency staff including law 
enforcement officers, special agents, reserve law enforcement 
officers, and administrative staff. The cost of law enforcement 
in the agency was about $68.5 million. This included about 
$43.8 million in salaries, $18.4 million in support costs, and 
$6.3 million in reimbursements to state and local law 
enforcement agencies for assisting with law enforcement 
activities on national forest lands. (A summary table of the 
number of staff and costs associated with the Forest Service's 
law enforcement program is included in app. I.)

BACKGROUND

    Most of the law enforcement activities of the Forest 
Service are authorized under titles 16, 18, and 21 of the U.S. 
Code. The Office of Law Enforcement and Investigations within 
the Forest Service is responsible for investigating offenses 
against the United States that occur within or have a nexus to 
the national forest system lands--which include 155 national 
forests and 20 national grasslands covering about 192 million 
acres. The types of investigations and enforcement actions in 
which the Forest Service is involved include wildlife crimes, 
fire/arson, timber and other property theft, theft and/or 
destruction of archeological resources or natural resources, 
illegal occupancy of national forest system lands, and threats 
and assaults against Forest Service employees. In addition, 
drug enforcement actions, authorized by the National Forest 
System Drug Control Act of 1986, as amended, are designed to 
detect and prevent the cultivation and manufacturing of 
marijuana on national forest system lands.

NUMBER OF LAW ENFORCEMENT EMPLOYEES

    In fiscal year 1997, the Forest Service employed 479 law 
enforcement officers, 149 special agents, 41 reserve law 
enforcement officers, and 39 administrative support personnel. 
With the exception of 16 staff that work in the Washington D.C. 
office, these staff are primarily assigned to field locations. 
Law enforcement officers perform and supervise a variety of 
duties that include the protection of Federal property and 
resources from natural or user-related degradation, the 
provision of safety and interpretive information to visitors, 
assisting search and rescue operations, assisting wildland fire 
suppression, and other duties. Special agents are involved in 
planning and conducting investigations relating to alleged or 
suspected violations of criminal laws. Special agents require a 
knowledge of such items as laws of evidence, criminal 
investigative techniques, court decisions concerning the 
admissibility of evidence, constitutional rights, search and 
seizure and related issues, and other criminal investigative 
skills.
    The 41 reserve law enforcement officers' principal duties 
are outside of law enforcement--such as timber or recreation. 
These staff may be called upon to perform law enforcement 
duties on an emergency or as-needed basis. Forest Service 
headquarters officials estimated that reserve law enforcement 
officers spend between 10 percent and 35 percent of their time 
performing law enforcement duties. Administrative support 
personnel perform a variety of functions, including data entry 
for case management, computer support, budget preparation and 
analysis, procurement, and time and attendance.

COSTS ASSOCIATED WITH LAW ENFORCEMENT

    The cost of law enforcement in the agency in fiscal year 
1997 included about $43.8 million in payroll, and $18.4 million 
in support costs. The total annual payroll for fiscal year 1997 
for the law enforcement officers was about $29.5 million, while 
the payroll for the special agents was about $12.6 million. In 
fiscal year 1997, the payroll for the administrative staff was 
about $1.7 million. According to Forest Service officials, no 
payroll information was available for the 41 reserve law 
enforcement officers because their principal duties were 
outside of law enforcement.
    In addition to payroll, in fiscal year 1997, the Forest 
Service spent about $18.4 million in support costs for its law 
enforcement personnel. This included about $5.2 million for 
support costs to regions and field units for rent, telephone, 
computer use, and radio dispatching services; about $4.8 
million for fleet equipment; about $2.6 million for equipment 
and supplies; about $2.2 million for travel; $1.3 million for 
transfer of station costs, and about $2.3 million for other 
costs, such as headquarters support, training, uniform and 
special equipment.
    For the 1997 report, you asked us to provide information on 
the pay scales of Federal and nonFederal law enforcement 
personnel. To address this request, we obtained information 
from the Department of Justice, which collected 1993 data on 
starting salaries for entry-level law enforcement officers from 
661 state and local law enforcement agencies across the nation. 
The data showed a wide range of starting salaries from a low of 
about $10,000 in Louisiana to a high of about $50,000 in 
California. (A listing of the range in salaries for each state 
can be found in app. II.) As a comparison, the Forest Service's 
entry-level salary in 1993 was $23,678.

OTHER ASPECTS OF FOREST SERVICE LAW ENFORCEMENT

    To assist with providing law enforcement, the Forest 
Service frequently enters into cooperative agreements with 
state and local law enforcement agencies. These cooperative 
agreements provide for the enforcement of state and local laws 
on national forest system lands. In 1997, there were 717 
cooperative agreements with state and local law enforcement 
agencies. Of these agreements, 546 were cooperative patrol 
agreements, which involved conducting routine patrols through 
the Forest Service's developed recreation areas, and 171 were 
agreements focusing on drug enforcement issues. As part of the 
agreement, the Forest Service reimburses the state and local 
agency for the cost of its activities. In fiscal year 1997, the 
Forest Service paid about $6.3 million to reimburse state and 
local law enforcement agencies for the costs of the services 
provided under both patrol and drug enforcement cooperative 
agreements.
    For the 1997 report, you asked us to provide some 
information on how frequently Federal agencies such as the FBI 
and the Drug Enforcement Agency (DEA) investigate crimes 
occurring on national forest lands. The FBI and DEA, as a 
general rule, have deferred to the Forest Service the 
investigative responsibility for violations occurring within 
national forest system lands. The Forest Service does not 
routinely collect information on referrals to FBI and DEA. 
However, according to the Forest Service, the FBI and DEA are 
rarely involved in Forest Service criminal investigations. The 
FBI has primary jurisdiction for a number of crimes, including 
organized crime, financial crime, foreign counterintelligence, 
civil rights, and others. By practice, the FBI does not involve 
itself with the types of crimes handled by the Forest Service. 
The Forest Service keeps DEA informed of investigations that 
require investigative or enforcement powers outside the 
boundaries of the national forest system.
    The 1997 report also provided information on the number of 
offenses that occurred on national forest system lands. (An 
offense means that a crime has occurred. An arrest generally 
means that someone has been identified as committing an 
offense.) In 1996, there were 3,481 offenses involving serious 
misdemeanors and felonies such as assaults, grand theft, and 
murder, and 118,596 petty offenses such as careless driving, 
discharging a firearm, use of firecrackers, alcohol violations, 
and permit violations.
    Finally, the report provided information on the number of 
complaints against Forest Service law enforcement personnel. In 
preparing for this testimony, we obtain updated information 
which showed that there were 4 complaints in 1992; 13 
complaints in 1993; 20 complaints in 1994; 25 complaints in 
1995; 11 complaints in 1996; and 14 complaints in 1997. In 
1997, as an example, the types of complaints made against 
agency law enforcement staff included falsifying time and 
attendance reports, verbal threats, obstruction of justice, and 
inappropriate discharge of a weapon. The Forest Service has a 
system to track the investigation and resolution of complaints 
against law enforcement staff. Depending on the nature of the 
complaint, it will either be investigated by agency regional 
human resources staff, the Department of Agriculture Office of 
the Inspector General, Forest Service law enforcement staff, or 
the Department of Justice.
    This concludes my statement. We would be happy to respond 
to any questions that you or any other Members of the 
Subcommittee may have.
[GRAPHIC] [TIFF OMITTED] T9653.001

[GRAPHIC] [TIFF OMITTED] T9653.002

[GRAPHIC] [TIFF OMITTED] T9653.003

[GRAPHIC] [TIFF OMITTED] T9653.004

  Statement of Robert C. Joslin, Deputy Chief for the National Forest 
    System, Forest Service, United States Department of Agriculture

    Madam Chairman and Members of the Subcommittee:
    I am appearing before you today to discuss law enforcement 
on National Forest System lands. I am accompanied by Bill 
Wasley, Director of Law Enforcement and Investigations (LE&I) 
for the Forest Service. I will cover the law enforcement 
program and structure, authorities, cooperation with others, 
and the special problems and challenges facing the Forest 
Service law enforcement program.
    The Forest Service manages approximately 192 million acres 
of land in the United States. We are responsible for the 
administration, use, and protection of the water, vegetation, 
wildlife and fish, cultural, mineral, and other resources on 
these lands. The National Forests and grasslands are also host 
to over 800 million people who visit and use these lands each 
year. We administer tens of thousands of permits, contracts, 
and other authorizations that produce goods and services from 
the National Forest System lands.
    Law enforcement is an integral part of the Forest Service's 
mission of ``Caring for the Land and Serving People.'' The goal 
of the law enforcement program is to protect the public, 
employees, and natural resources and other property under the 
jurisdiction of the Forest Service.
    Population increases around the country are driving urban 
problems onto National Forest System lands. Drug use and sales, 
alcohol incidents, assaults, thefts, murders, suicides, rape, 
assault and gang activities are increasingly common on these 
lands, as are threats and assaults directed against our 
employees. The monetary value of forest products, and the 
increased value of commercial recreation and special uses has 
increased theft and other illegal activities. In short, the 
need for law enforcement has increased.

Structure And Program

    The Director of the Forest Service Law Enforcement and 
Investigations (LE&I) organization reports directly to the 
Chief. The Director has a Deputy Director and 4 Assistant 
Directors in the Washington Office. The Director also has 9 
Regional Special Agents-In-Charge who supervise the law 
enforcement program in each region of the Forest Service. 
Regional organizations vary, but generally consist of a small 
regional staff, a zone supervisory level, and a supervisory 
level at the forest. The uniformed law enforcement officers 
work under the zone and forest-level supervisors. At this time 
the Forest Service has approximately 450 uniformed law 
enforcement officers and 130 criminal investigators.
    Law enforcement of officers perform a full range of patrol-
type enforcement duties, such as enforcing compliance with 
regulations for woodcutting, fire use, or dealing with 
unauthorized occupancy and use of National Forest System lands. 
Law enforcement officers regularly encounter and handle public 
safety incidents such as traffic accidents, search and rescues, 
disputes, shooting incidents, drug and alcohol possession and 
use problems, and assaults. They conduct preliminary 
investigations and assist Forest Service criminal investigators 
in conducting some full investigations. Criminal investigators 
conduct investigations regarding timber theft, theft of 
archeological artifacts, threats against Forest Service 
employees, wildland arson and human-caused fires, marijuana 
cultivation, and damage to public property, among others.
    In addition to patrol and investigation, our officers 
advise and assist other field employees of the Forest Service 
as they perform their public contact and administration work. 
The natural resource backgrounds of many of the law enforcement 
officers and criminal investigators greatly facilitates this 
assistance.
    The Forest Service grants full-range law enforcement 
authority (the authority to carry and use defensive equipment) 
only to law enforcement officers and criminal investigators. 
Law enforcement officers complete an 11-week training course, 
while criminal investigators complete an 8-week training 
course. Both of these courses are taught at the Federal Law 
Enforcement Training Center (FLETC). These basic training 
courses teach basic law enforcement and investigation skills, 
and train officers in Federal law enforcement legal 
requirements, ethics, court systems and procedures. Both types 
of officers also attend a 2 week course in land management 
enforcement which focuses on timber theft, fire, illegal drug 
enforcement and other programs or techniques unique to the 
Forest Service. Officers must annually complete a minimum of 40 
hours of in-service law enforcement training regarding policy, 
enforcement issues and legal updates. They meet regular 
training and qualification standards with their defensive 
equipment, including quarterly firearms training. This training 
is provided by Forest Service instructors trained and certified 
at FLETC. Officers may also receive specialized advanced 
training in timber theft, archeological resource theft, 
marijuana cultivation enforcement, computer crime, white collar 
fraud, and fire cause determination. Because of the extensive 
work we do in these fields, some of our officers are nationally 
and internationally recognized experts.
    Investigations have positive results. Every year our 
officers investigate thousands of wildfires to determine their 
cause. In addition to any criminal prosecutions that may result 
from these investigations, the Forest Service often seeks civil 
remedies to recover the cost of suppression, and the value of 
resources damaged. Arson cases investigated by LE&I personnel 
in recent years have resulted in civil recoveries of over $7 
million. Cases investigated by criminal investigators resulted 
in the conviction of a man who burglarized Forest Service 
facilities (over $31,000 in loss and damage), as well as the 
conviction of an equipment company owner who had filed $66,000 
in fraudulent claims. Hundreds of convictions have been 
obtained from the enforcement of archeological resources 
protection laws and regulations, including one case in Utah 
where 9 individuals were convicted of multiple felonies 
involving the theft of hundreds of artifacts from, and nearly 
$500,000 in damage to, a prehistoric cave site. Civil 
recoveries have also resulted from these cases. Convictions for 
timber theft or damage have been obtained. Last April, a man in 
Washington state was convicted of causing $850,000 in damage 
while cutting and removing 50 old-growth cedar trees in the Mt. 
Baker-Snoqualmie National Forest.
    The Forest Service has played a significant role in drug 
enforcement for over twenty years. In 1997, eighty drug labs or 
drug lab dumps were found on National Forest System lands. 
Working cooperatively with our state and local law enforcement 
partners, the Forest Service eradicated over 300,000 marijuana 
plants valued at nearly $950 million from approximately 4,400 
sites. Officers made over 2,400 arrests, and seized nearly $14 
million worth of processed marijuana, $20 million of cocaine, 
and over $1.1 million in assets. Marijuana cultivation and 
other drug activity continue to present a risk to the public 
using the National Forest System lands as well as our 
employees. In 1997, 26 people were assaulted by growers on 
National Forest System lands, 211 weapons were found in the 
possession of growers, and 48 booby traps were found at growing 
sites.
    The Forest Service LE&I program is funded by a separate 
line item in the budget. The appropriated funding for LE&I in 
fiscal year 1997 was $59,637,000; the appropriated funding for 
the program in fiscal year 1998 is $63,967,000. The President's 
budget request for Fiscal Year 1999 is $67,373,000.

Authorities

    Law enforcement has been an integral part of resource 
protection since the formation of the forest reserve system in 
1897. Section 1 of the Organic Administration Act of 1897, 
authorizes the Secretary of Agriculture to issue regulations 
for the protection and use of national forests and prescribes 
criminal sanctions for violations of the regulations. 
Enforcement of the Forest Service's criminal regulations and 
other authorities protect natural resources and ensure the 
safety of the public on National Forest System lands. Upon 
creation of the agency in 1905, Congress authorized agency 
employees to make arrests for violations of laws and 
regulations relating to national forests.
    While the Federal mandate to control and regulate the 
national forests is clear, States retain civil and criminal 
jurisdiction to enforce state laws on National Forest System 
lands. When authorized, Forest Service law enforcement officers 
may enforce laws other than those pertaining to the national 
forests. In the Act of May 23, 1908, Congress authorized Forest 
Service officials to enforce within national forests certain 
state laws as well as Federal laws unrelated to the national 
forests. The Cooperative Law Enforcement Act, authorizes the 
Forest Service to reimburse local law enforcement agencies for 
enforcement of state and local laws on National Forest System 
lands.
    In 1986, Congress passed the National Forest System Drug 
Control Act, which was amended in 1988, authorizing the Forest 
Service to investigate drug offenses where they occur on, or 
affecting the administration of, National Forest System lands. 
The Forest Service drug control program is an important element 
in meeting strategic goals and objectives articulated in the 
1998 National Drug Control Strategy. We work closely with the 
Office of National Drug Control Policy on drug control.

Cooperation With Others

    Each year increases in public and commercial use of 
National Forest System lands causes increases in crimes against 
people and resources. Other Federal, state, and local law 
enforcement agencies are similarly faced with increasing crime 
trends that tax their abilities to accomplish their work with 
limited resources. Although Forest Service officers have 
various authorities to enforce state and local laws, 
cooperation with state and local agencies in the enforcement of 
these laws on public lands is encouraged. Due to the remoteness 
of most National Forest System lands, and the limited staffing 
of other agencies, our officers are often the first or only 
officer able to respond.
    The Cooperative Law Enforcement Act authorizes the Forest 
Service to reimburse local law enforcement agencies for 
expenses associated with law enforcement services on National 
Forest System lands. In 1997, the Forest Service had 546 
cooperative agreements with state and local agencies to perform 
routine law enforcement patrol activities, and 171 drug 
enforcement cooperative agreements. These agreements provided 
funds totaling over $5 million dollars to local law enforcement 
agencies in 1997. Each agreement is negotiated at the local 
level between the Forest Service and the local agency, and 
funds are paid on a reimbursable basis. The agreements often 
address other cooperative efforts such as mutual back-up, 
equipment and information sharing, and enhanced coverage in 
remote or heavily used areas.
    The Forest Service has Memorandums of Understanding (MOU) 
with a variety of Federal agencies such as the U.S. Marshals 
Service, the Department of the Interior, and the Drug 
Enforcement Administration. These MOU's provide for 
coordination of enforcement or investigative activities that 
are mutually beneficial to the cooperating agencies.

Special Problems And Challenges

    Total incidents reported by Forest Service officers in 1997 
were triple those reported in 1992. The trends of increased use 
of the National Forests and increasing urbanization stretch our 
patrol and investigation staff. Large events such as the 
upcoming 2002 Olympics, increasing demonstrations, drug 
smuggling, a large number of recent natural disasters, and 
large group events on National Forest System land further 
impact our local coverage by requiring us to move our 
enforcement personnel around the country.
    Our budget has been impacted by the various law enforcement 
officer pay requirements of Congress, such outlaw Enforcement 
Availability Pay and law enforcement officer pay comparability.
    The tracking of crime trends and our workload and 
accomplishments are becoming increasingly important. Two 
computerized data base programs are currently in use. The 
Forest Service is in the process of developing a new database 
system that will replace the two existing systems, utilizing 
the Forest Service's new computer system. The new database 
system will meet the FBI Uniform Crime Reporting System 
requirements, and provide modern computer technology to all 
levels of our law enforcement program. We also recently 
implemented a new field activity reporting system used by 
individual officers and organizational levels. These changes 
will provide us with more accurate and consistent data on our 
accomplishments.
    We have implemented a large number of program and 
organizational changes since 1994 that have improved the 
oversight, professionalism, and customer service focus of our 
organization. Our emphasis in organizational change has been to 
focus our field criminal investigators on investigation duties, 
and to increase the staffing of uniformed law enforcement 
officers, especially in areas where there has been little or no 
coverage.
    Congress directed that the Forest Service complete an 
independent study of the current LE&I organization and submit a 
report by March 1, 1997. The report was completed by Star 
Mountain, Inc., the Star Mountain Report, and made five 
recommendations:

          1. LE&I should aggressively apply the decisions from the LE&I 
        Strategic Plan Report for the Year 2000 throughout the 
        organization and evaluate the effect of improved organizational 
        management procedures and processes.
          2. LE&I should identify the resources necessary to maintain 
        effectiveness in the future and communicate those requirements 
        to the Chief, Forest Service.
          3. The Forest Service should provide a mechanism whereby line 
        management can reprogram funds for additional cooperative 
        effort in support of enforcement activity where appropriate.
          4. LE&I should examine the potential for use of existing 
        block grants and examine the potential for establishing a block 
        grant to fund training and equipment for cooperative law 
        enforcement personnel.
          5. LE&I should review the alternative approaches for 
        providing full law enforcement coverage while reducing costs.
    In looking at alternatives for cooperative efforts with state and 
local agencies, the report also concluded that block grants were not 
viewed as a viable alternative to the current cooperative agreement 
reimbursement program for having other law enforcement agencies assume 
LE&I law enforcement responsibilities. However, targeted block grants 
could supplement the existing cooperative agreement program to help 
fund specialized equipment and training required for Forest Service-
type work. We are currently analyzing our cooperative law enforcement 
program for ways to maximize its effectiveness and best meet the needs 
of impacted state and local agencies.

Conclusion

    In summary, our law enforcement program is a valuable part of the 
Forest Service's mission of ``Caring for the Land and Serving People.'' 
Crime problems have increased and have migrated to the National Forest 
System lands. Our officers meet accepted standards for Federal law 
enforcement training. A strong cooperative law enforcement program 
allows us to efficiently share scarce resources. We are currently 
facing a myriad of challenges in public safety, public service, and 
resource protection, and are working on improving our program and 
organization through training, updating equipment, and improving our 
reporting systems to respond to these challenges. This concludes my 
prepared remarks and we would be happy to answer questions.

</pre></body></html>
